OIG Investigative Reports, Little Rock AR January 27, 2012 - Former Ash Flat Return Preparers Sentenced to Multiple Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT OF ARKANSAS
NEWS
FORMER ASH FLAT TAX RETURN PREPARERS SENTENCED ON MULTIPLE CHARGES
January 27, 2012
Little Rock - Christopher R. Thyer, United States Attorney for the Eastern District of Arkansas, announced today that James Bruce Morris, age 66, and Karen Sue Morris, age 49, tax return preparers who for several years operated B. Morris Ltd. in Ash Flat, Arkansas, were sentenced today by U.S. District Judge Susan Webber Wright. James Morris was ordered to serve 48 months in prison and his wife, Karen Morris, was sentenced to serve 24 months in prison. Each was sentenced to 3 years of supervision following their terms of imprisonment. The judge will issue an order of restitution in three weeks pertaining to both defendants. Both Morrises were prohibited from engaging in tax preparation business as part of the sentence. Judge Wright ordered both to report to the Bureau of Prisons by noon on May 7, 2012.
On April 26, 2011, the Morrises were convicted of 44 charges, which included theft of funds from the Social Security Administration and the Veterans Administration stemming from Mr. Morris concealing his work and earnings from his business in order to qualify for benefits; defrauding the Department of Education regarding false FAFSA applications; and filing false tax returns for themselves and their clients in which income was under-reported and deductions were overstated and in some cases in which the Earned Income Tax Credit was fraudulently received.
This investigation was conducted by agents from the Internal Revenue Service-Criminal Investigation, the Social Security Administration Office of Inspector General, the Veterans Administration Office of Inspector General, and the Department of Education Office of Inspector General.
Top
Printable view
Last Modified: 02/02/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov